         OFFICE OF INSPECTOR GENERAL

                                   Catalyst for Improving the Environment


Evaluation Report




         Federal Information Security
         Management Act


         Fiscal Year 2004 Status of EPA’s
         Computer Security Program

         Report No. 2004-S-00007


         September 30, 2004
Report Contributors:                               Ed Densmore
                                                   Anita Mooney
                                                   Vincent Campbell
                                                   Cheryl Reid




      Abbreviations

      EPA        Environmental Protection Agency
      C&A        Certification and Accreditation
      FISMA      Federal Information Security Management Act
      GAO        Government Accountability Office
      IFMS       Integrated Financial Management System
      IT         Information Technology
      OIG        Office of Inspector General
      OMB        Office of Management and Budget
      POA&M      Plan of Action and Milestones
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460
                                                                           THE INSPECTOR GENERAL




                                      September 30, 2004
MEMORANDUM

SUBJECT:            Federal Information Security Management Act:
                    Fiscal Year 2004 Status of EPA’s Computer Security Program
                    Report No. 2004-S-00007

TO:                 Michael O. Leavitt
                    Administrator

Attached is our final report entitled Federal Information Security Management Act: Fiscal Year
2004 Status of EPA’s Computer Security Program. This report synopsizes the results of
information technology security work the U.S. Environmental Protection Agency’s Office of
Inspector General (OIG) performed during Fiscal Year (FY) 2004. This report includes the
OIG’s completed FY 2004 FISMA Reporting Template, as prescribed by the Office of
Management and Budget (OMB).

In accordance with OMB reporting instructions, I am forwarding this report to you for
submission, along with the Agency’s required information, to the Director, OMB.




                                      Nikki L. Tinsley /s/

Attachment

cc:
K. Nelson, Assistant Administrator for Environmental Information (OEI) (2810A)
M. Day, Director, Office of Technology Operations and Planning (OTOP) (2831T)
G. Bonina, Senior Agency Information Security Officer (2831T)
R. Gonzalez, Director, National Technology Services Division (NTSD) (N229-01)
M. Cody, Associate Director, Technical Information Security Staff (TISS) (2831T)
J. Gibson, Operations Security Manager, NTSD (N276-01)
J. Worthington, OEI Audit Coordinator (2812T)
R. Trent, OEI Audit Coordinator (2831T)
K. Farmer, TISS Audit Coordinator (2831T)
                   Fiscal Year 2004 Status of EPA’s
                     Computer Security Program
The Federal Information Security Management Act (FISMA) requires the Office of Inspector
General (OIG) to perform an independent evaluation of the Agency’s information security
program and practices. We performed our work in accordance with Government Auditing
Standards, issued by the Comptroller General of the United States. The following summarizes
information security work we performed during fiscal 2004.

Information Technology Security Performance

In general, Agency officials have taken positive actions to secure EPA’s information resources.
EPA has adequate physical security controls to protect its network firewalls, including
comprehensive continuity of operations plans. However, our audit entitled EPA’s
Administration of Network Firewalls Needs Improvement, Report Number 2004-P-00013, dated
March 31, 2004, disclosed logical and configuration control weaknesses which need to be
improved to further secure information resources. We recommended several actions to the
Director, Office of Technology, Operations, and Planning, to improve EPA’s firewall security,
including: establishing a standard configuration requirement for adequately securing
workstations used to remotely administer the network firewalls; modifying the change and patch
management processes to ensure that when firewall changes and patches are applied they do not
adversely affect previously applied fixes; and modifying the network vulnerability assessment
methodology to include scanning of all firewall components. Agency officials concurred with
our recommendations and reported that corrective actions were to be implemented by September
30, 2004.

We also evaluated the adequacy of policies, procedures, and practices for controlling financial
application development and software changes to EPA’s Integrated Financial Management
System (IFMS). Our audit entitled EPA Needs to Improve Change Controls for Integrated
Financial Management System, Report Number 2004-P-00026, dated August 24, 2004, reported
a general breakdown of security controls that could undermine the integrity of IFMS software
libraries and financial system data. Duties had not been adequately segregated, individuals used
an inappropriate ID or continued to have system access after no longer needing it, and contractor
personnel were granted access to IFMS without a successful background security check.
Further, management had not instituted a formal, structured change control process for IFMS to
ensure software program modifications were properly authorized, tested, and approved. We
made various recommendations to the Chief Financial Officer and the Acting Assistant
Administrator for Administration and Resources Management to improve IFMS controls and
institutionalize security screening procedures. In commenting on the draft report, the Chief
Financial Officer concurred with our recommendations and generally outlined appropriate
corrective actions to improve security and change controls over IFMS. The Acting Assistant
Administrator for Administration and Resources Management did not concur with our
recommendations concerning contractor background investigations, asserting that “suitability”
background investigations of Federal contractors are not required. Management stated its
existing, interim procedures were sufficient to guide offices that chose to initiate background


                                                1
investigations. However, current EPA policy and Federal guidance strongly recommend
screening comparable to that for Federal staff, and we strongly urge such screening. A response
to the final report is due by November 24, 2004.

Plan of Action and Milestones

EPA has developed, implemented, and is managing an adequate, Agency-wide plan of action and
milestones (POA&M) process. We reviewed EPA’s POA&M process, which included
validating a sample of “completed” POA&Ms from the Agency’s December 2003 Quarterly
Report to the Office of Management and Budget. Our validation methodology included
reviewing supporting documentation and interviewing appropriate personnel to determine if the
corrective actions taken adequately addressed the weakness and complied with applicable
Federal criteria.

In general, EPA’s POA&M process incorporates known Information Technology (IT) security
weaknesses, developed by both program officials and the Chief Information Officer. The Chief
Information Officer centrally tracks, maintains, and reviews POA&M activities. We found the
POA&M process does not currently prioritize security weaknesses; however Agency officials are
actively addressing this issue and expect to complete the first phase of a two-phased
prioritization development process by November 2004. We also identified some errors with the
data, but we did not consider them to be of a “material” nature and concluded that (1) most of the
inaccuracies stemmed from the newness of the tracking system and (2) these problems would be
rectified as soon as OEI issued additional administrative guidance. We made suggestions to
improve the quality of the data, and Agency officials discussed our concerns at the 2004
Information Security Officer training conference.

Certification and Accreditation

The Agency’s Certification and Accreditation (C&A) process complies with Federal guidance.
In assessing the Agency’s C&A process, we used the Government Accountability Office’s
(GAO) report entitled Agencies Need to Implement Consistent Processes in Authorizing Systems
for Operation, Report Number GAO-04-376, dated June 2004. In a survey of 24 major
departments and agencies, GAO found that agencies need to implement consistent processes in
authorizing systems for operation. Based on its field work of six systems, GAO prepared a
statement of facts summarizing findings specific to EPA and indicated that the Agency’s C&A
process and specific C&A packages generally complied with Federal C&A criteria. However,
GAO indicated that they found varying degrees of comprehensiveness at EPA and instances
where required steps were incomplete, such as missing and/or untested contingency plans and
missing risk assessments. In addition, although EPA’s system self-assessments stated that
security controls had been “tested,” GAO found limited documentation to support that these
controls had actually been tested on an annual basis. The only evidence GAO found was the
results of technical vulnerability assessments, which were conducted as part of periodic risk
assessments. Further, in some cases, GAO found it difficult to determine the actual risk being
accepted by EPA in the accreditation decision.




                                                2
Incident Detection and Handling

The Agency’s incident detection and handling practices comply with documented policies and
procedures. We reviewed the Agency’s processes for incident handling by examining a sample
of security incidents taken from the Computer Security Incident Response Center’s weekly
reports. We tracked these incidents through the process to determine how they were identified,
remedied, and reported internally, as well as externally, if applicable. We found the Agency
followed defined policies and procedures for reporting incidents internally, as well as externally
to law enforcement and the US Computer Emergency Readiness Team.

Security Training and Awareness
EPA continues to make improvements in providing and recording training to ensure security
training and awareness of all employees, including contractors and those employees with
significant IT security responsibilities. For example, EPA indicated that 49 percent of personnel
with significant IT responsibilities received training in fiscal 2004, up from 31 percent in fiscal
2003. During this past year, the Agency implemented an on-line IT Security training library
available through the Federal government’s E-learning portal (i.e., GoLearn.gov). The
GoLearn.gov IT security library contains 13 role-based training plans. Agency officials
identified employees with significant security responsibilities by 1 of the 13 functional roles, and
pre-registered these employees into the Go-Learn training system. In addition, it was
recommended these employees take at least two of the Go-Learn courses by August 31, 2004.




                                                 3
                             2004 FISMA Report
Agency:                            Environmental Protection Agency


Date Submitted:        10/6/2004

Submitted By:          OIG

Contact Information:
           Name:       Pat Hill
           E-mail:     Hill.Pat@EPA.gov
           Phone:      202-566-0894
Section A: System Inventory and IT Security Performance
NOTE: ALL of Section A should be completed by BOTH the Agency CIO and the OIG.




    A.1. By bureau (or major agency operating component), identify the total number of programs and systems in the agency and the total number of contractor operations or facilities. The agency CIOs and IG's
    shall each identify the total number that they reviewed as part of this evaluation in FY04. NIST 800-26, is to be used as guidance for these reviews.




    A.2. For each part of this question, identify actual performance in FY04 for the total number of systems by bureau (or major agency operating component) in the format provided below.


                                                                               A.1                                                                                        A.2

                                                       A.1.a.              A.1.b.               A.1.c.                 A.2.a.                 A.2.b.                  A.2.c.                  A.2.d.                 A.2.e.

                                                  FY04 Programs        FY04 Systems        FY04 Contractor       Number of systems Number of systems            Number of systems Number of systems        Number of
                                                                                            Operations or          certified and       with security             for which security with a contingency systems for which
                                                                                              Facilities            accredited         control costs            controls have been          plan       contingency plans
                                                                                                                                   integrated into the               tested and                         have been tested
                                                                                                                                     life cycle of the          evaluated in the last
                                                                                                                                          system                        year



                                                   Total    Number     Total     Number     Total    Number       Total    Percent of     Total   Percent of     Total      Percent of    Total   Percent of     Total   Percent of
               Bureau Name                        Number   Reviewed   Number    Reviewed   Number   Reviewed     Number      Total       Number     Total       Number        Total      Number     Total       Number     Total
    Office of the Administrator                        1          0         2                   0            0                   0.0%                   0.0%                      0.0%                  0.0%                  0.0%
    Office of Air and Radiation                        1          0        19          2        2            0                   0.0%         2        10.5%                      0.0%        0         0.0%         0        0.0%
    Office of Administration and Resources
    Management                                         1          0        12          4        2            0         1         8.3%         3        25.0%          1          8.3%                   0.0%                  0.0%
    Office of the Chief Financial Officer              1          0        18         12        0            0                   0.0%         2        11.1%         10         55.6%                   0.0%                  0.0%

    Office of Enforcement and Compliance               1          0        11          2        0            0                   0.0%         2        18.2%                      0.0%                  0.0%                  0.0%
    Office of Environmental Information -
    Central                                            2          0        38         16        1            0         3         7.9%        11        28.9%          3           7.9%                  0.0%                  0.0%
    Office of Environmental Information - Non
    Central*                                                      0                             7
    Office of General Counsel                          1          0         1          0        0            0                    0.0%                   0.0%                    0.0%                    0.0%                 0.0%
    Office of International Activities                 1          0         1          0        0            0                    0.0%                   0.0%                    0.0%                    0.0%                 0.0%
    Office of Inspector General                        1          0         9          9        0            0         9        100.0%        9        100.0%         8         88.9%         9        100.0%        9      100.0%
    Office of Prevention, Pesticides, and Toxic
    Substances                                         1          0         9          2        0            0         1        11.1%         1        11.1%          1         11.1%                   0.0%                  0.0%

    Office of Research and Development                 1          0        16          1        0            0                   0.0%                   0.0%                      0.0%        1         6.3%         1        6.3%
    Office of Solid Waster and Emergency
    Response                                           1          0        13          3        7            0                    0.0%        3        23.1%                     0.0%         1          7.7%        0        0.0%
    Office of Water                                    1          0        10          3        0            0                    0.0%        2        20.0%          1         10.0%                    0.0%                 0.0%
    Region 1 - Boston                                  1          0         1          0        0            0                    0.0%                  0.0%                     0.0%                    0.0%                 0.0%
    Region 2 - New York                                1          0         1          1        0            0                    0.0%                  0.0%                     0.0%         1        100.0%        1      100.0%
    Region 3 - Philadelphia                            1          0         1          0        0            0                    0.0%                  0.0%                     0.0%                    0.0%                 0.0%
    Region 4 - Atlanta                                 1          0         1          1        0            0         1        100.0%                  0.0%                     0.0%                    0.0%                 0.0%
    Region 5 - Chicago                                 1          0         3          0        0            0                    0.0%                  0.0%                     0.0%                    0.0%                 0.0%
    Region 6 - Dallas                                  1          0         2          0        0            0                    0.0%                  0.0%                     0.0%                    0.0%                 0.0%
    Region 7 - Kansas City                             1          0         1          0        0            0                    0.0%                  0.0%                     0.0%                    0.0%                 0.0%
    Region 8 - Denver                                  1          0         2          0        0            0                    0.0%                  0.0%                     0.0%                    0.0%                 0.0%
    Region 9 - San Francisco                           1          0         1          0        0            0                    0.0%                  0.0%                     0.0%                    0.0%                 0.0%
    Region 10 - Seattle                                1          0         1          0        0            0                    0.0%                  0.0%                     0.0%                    0.0%                 0.0%
Agency Total                                          24          0       173         56       19            0        15          8.7%       35        20.2%         24         13.9%        12          6.9%       11        6.4%
Comments: * The OIG did not differentiate between OEI-Central and OEI-Non-Central programs and, therefore, reported all systems reviewed under OEI-Central.
A.1.b. - The OIG did not use NIST 800-26 in its entirety for these reviews.
A.2 - The universe of systems reviewed for A.2.a. through A.2.e. represents unique subsets of the Agency total of 173; based on individual reviews conducted by GAO or the OIG.
      The universe for A.2.a.through A.2.e. is 15, 35, 24, 13 and 13 respectively.
This page reflects the OIG response, which differs from the Agency Response. Per OMB requirements, the Agency response has been submitted under separate cover.
                                                                                                        A.3


A.3. Evaluate the degree to which the following statements reflect the status in your agency, by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in
the Comment area provided below.


                                                                  Statement                                                                                            Evaluation


        a. Agency program officials and the agency CIO have used appropriate methods to ensure that contractor provided services or
        services provided by another agency for their program and systems are adequately secure and meet the requirements of FISMA, OMB                  Almost Always, or 96-100% of the time
        policy and NIST guidelines, national security policy, and agency policy.



        b. The reviews of programs, systems, and contractor operations or facilities, identified above, were conducted using the NIST self-
                                                                                                                                                         Almost Always, or 96-100% of the time
        assessment guide, 800-26.



        c. In instances where the NIST self-assessment guide was not used to conduct reviews, the alternative methodology used addressed
        all elements of the NIST guide.



        d. The agency maintains an inventory of major IT systems and this inventory is updated at least annually.                                        Almost Always, or 96-100% of the time



        e. The OIG was included in the development and verification of the agency’s IT system inventory.                                                 Almost Always, or 96-100% of the time



        f. The OIG and the CIO agree on the total number of programs, systems, and contractor operations or facilities.                                  Almost Always, or 96-100% of the time


        g. The agency CIO reviews and concurs with the major IT investment decisions of bureaus (or major operating components) within the
                                                                                                                                                         Almost Always, or 96-100% of the time
        agency.

                                                                  Statement                                                                                            Yes or No


        h. The agency has begun to assess systems for e-authentication risk.                                                                                              Yes


        i. The agency has appointed a senior agency information security officer that reports directly to the CIO.                                                        Yes


Comments:
A.3.c. is actually "Not Applicable" since the NIST self-assessment guide was used to conduct all system reviews.
Section B: Identification of Significant Deficiencies
NOTE: ALL of Section B should be completed by BOTH the Agency CIO and the OIG.



   B.1. By bureau, identify all FY 04 significant deficiencies in policies, procedures, or practices required to be reported under existing law. Describe each on a separate
   row, and identify which are repeated from FY03. In addition, for each significant deficiency, indicate whether a POA&M has been developed. Insert rows as needed.


                                                                                      B.1.
                                                                                               FY04 Significant Deficiencies
                                                           Total Number                                                                                            POA&M
                                              Total          Repeated                                                                                            developed?
             Bureau Name                     Number         from FY03                     Identify and Describe Each Significant Deficiency                       Yes or No

                                                                           For FY04, EPA did not have any significant deficiencies in policies, procedures, or
                                                                           practices to report.




Agency Total                                           0               0


Comments:
Section C: OIG Assessment of the POA&M Process
NOTE: Section C should *ONLY* be completed by the OIG. The CIO should leave this section blank.

   C.1. Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency-wide plan
   of action and milestone (POA&M) process. This question is for IGs only. Evaluate the degree to which the following statements reflect the status in your
   agency by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the Comment area provided below.

                                                                                     C.1
                                                   Statement                                                                           Evaluation

        a. Known IT security weaknesses, from all components, are incorporated into the POA&M.                       Almost Always, or 96-100% of the time

        b. Program officials develop, implement, and manage POA&Ms for systems they own and
                                                                                                                     Almost Always, or 96-100% of the time
        operate (systems that support their program or programs) that have an IT security weakness.

        c. Program officials report to the CIO on a regular basis (at least quarterly) on their remediation
                                                                                                                     Almost Always, or 96-100% of the time
        progress.

        d. CIO develops, implements, and manages POA&Ms for every system they own and operate (a
                                                                                                                     Almost Always, or 96-100% of the time
        system that supports their program or programs) that has an IT security weakness.

        e. CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.              Almost Always, or 96-100% of the time

        f. The POA&M is the authoritative agency and IG management tool to identify and monitor
                                                                                                                     Almost Always, or 96-100% of the time
        agency actions for correcting information and IT security weaknesses.
        g. System-level POA&Ms are tied directly to the system budget request through the IT business
                                                                                                                     Almost Always, or 96-100% of the time
        case as required in OMB budget guidance (Circular A-11).

        h. OIG has access to POA&Ms as requested.                                                                    Almost Always, or 96-100% of the time

        i. OIG findings are incorporated into the POA&M process.                                                     Almost Always, or 96-100% of the time
        j. POA&M process prioritizes IT security weaknesses to help ensure that significant IT security weaknesses
                                                                                                                     Rarely, or 0-50% of the time
        are addressed in a timely manner and receive appropriate resources.



Comments:
C.1.j. - The Agency has begun a process to prioritize POA&Ms. They are currently assigning and assessing risk values for the NIST 800-26 questions. The
Agency expects to complete this phase by November 2004. In the next phase, the Agency plans to apply a cost estimate to the risks, with a planned completion of
May 2005.
  C.1 OIG Assessment of the Certification and Accreditation Process
  Section C should only be completed by the OIG. OMB is requesting IGs to assess the agency’s certification and accreditation process in
  order to provide a qualitative assessment of this critical activity. This assessment should consider the quality of the Agency’s certification and
  accreditation process. Any new certification and accreditation work initiated after completion of NIST Special Publication 800-37 should be
  consistent with NIST Special Publication 800-37. This includes use of the FIPS 199, “Standards for Security Categorization of Federal
  Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance for completing
  risk assessments and security plans. Earlier NIST guidance is applicable to any certification and accreditation work completed or initiated
  before finalization of NIST Special Publication 800-37. Agencies were not expected to use NIST Special Publication 800-37 as guidance
  before it became final.


                                            Statement                                                                      Evaluation
Comments: In assessing the Agency’s Certification and Accreditation (C&A) process, we used audit
work performed by the Government Accountability Office (GAO). In a statement of facts summarizing
GAO’s C&A review at EPA, GAO indicated that the Agency’s C&A process and specific C&A packages
generally complied with C&A criteria found in federal guidance. However, GAO also indicated that they
found varying degrees of comprehensiveness and instances where required steps were incomplete, such
as missing and/or untested contingency plans, and missing risk assessments. In addition, although EPA’s
system self-assessments stated that security controls had been “tested,” GAO found limited
documentation to support that these controls had actually been tested on an annual basis. The only
available evidence GAO could find was the results of technical vulnerability assessments, which were
conducted as part of periodic risk assessments. Further, in some cases GAO found it difficult to
determine the actual residual risk being accepted in the accreditation decision. Based on GAO's findings,
we find EPA's C&A process to be satisfactory.                                                               Satisfactory
Section D
NOTE: ALL of Section D should be completed by BOTH the Agency CIO and the OIG.



   D.1. First, answer D.1. If the answer is yes, then proceed. If no, then skip to Section E. For D.1.a-f, identify whether agency-wide security configuration
   requirements address each listed application or operating system (Yes, No, or Not Applicable), and then evaluate the degree to which these configurations
   are implemented on applicable systems. For example: If your agency has a total of 200 systems, and 100 of those systems are running Windows 2000,
   the universe for evaluation of degree would be 100 systems. If 61 of those 100 systems follow configuration requirement policies, and the configuration
   controls are implemented, the answer would reflect "yes" and "51-70%". If appropriate or necessary, include comments in the Comment area provided
   below.


   D.2. Answer Yes or No, and then evaluate the degree to which the configuration requirements address the patching of security vulnerabilities. If
   appropriate or necessary, include comments in the Comment area provided below.

                                                                       D.1. & D.2.                                        D.1.                D.2.

                                                                                                                          Yes,
                                                                                                                         No, or
                                                                                                                          N/A             Evaluation
D.1. Has the CIO implemented agency-wide policies that require detailed specific security configurations and what is
the degree by which the configurations are implemented?
                                                                                                                                    Almost Always, or 96-100%
                 a. Windows XP Professional
                                                                                                                          Yes       of the time
                                                                                                                                    Almost Always, or 96-100%
                 b. Windows NT
                                                                                                                          Yes       of the time
                                                                                                                                    Almost Always, or 96-100%
                 c. Windows 2000 Professional
                                                                                                                          Yes       of the time

                 d. Windows 2000                                                                                                    Rarely, or 0-50% of the time
                                                                                                                          Yes
                                                                                                                                    Almost Always, or 96-100%
                 e. Windows 2000 Server
                                                                                                                          Yes       of the time

                                                                                                                                    Almost Always, or 96-100%
                 f. Windows 2003 Server
                                                                                                                          Yes       of the time

                                                                                                                                    Almost Always, or 96-100%
                 g. Solaris
                                                                                                                          Yes       of the time

                 h. HP-UX
                                                                                                                          Yes
                                                                                                                                    Almost Always, or 96-100%
                 i. Linux
                                                                                                                          Yes       of the time

                 j. Cisco Router IOS
                                                                                                                           No
                 k. Oracle                                                                                                          Rarely, or 0-50% of the time
                                                                                                                          Yes
                                                                                                                                    Almost Always, or 96-100%
                 l. Other. Specify: Netware, HP Tru 64, IBM AIX, and SGI IRIX                                             Yes       of the time
                                                                                                                         Yes or
                                                                                                                                          Evaluation
                                                                                                                          No
        D.2. Do the configuration requirements implemented above in D.1.a-f., address patching of security                          Almost Always, or 96-
        vulnerabilities?                                                                                                  Yes       100% of the time
Comments: D.1 - Agency officials compiled the evaluation responses in late September 2004, and therefore, the OIG did not independently verify them.
D.1.h. - The Agency did not evaluate this configuration because it is no longer used in the Agency.
Section E: Incident Detection and Handling Procedures
NOTE: ALL of Section E should be completed by BOTH the Agency CIO and the OIG.


   E.1. Evaluate the degree to which the following statements reflect the status at your agency. If appropriate or necessary, include comments in the Comment area provided
   below.

                                                                                          E.1

                                                           Statement                                                                                    Evaluation


                 a. The agency follows documented policies and procedures for reporting incidents internally.                          Almost Always, or 96-100% of the time

                 b. The agency follows documented policies and procedures for external reporting to law enforcement
                                                                                                                                       Almost Always, or 96-100% of the time
                 authorities.
                 c. The agency follows defined procedures for reporting to the United States Computer Emergency Readiness
                                                                                                                                       Almost Always, or 96-100% of the time
                 Team (US-CERT). http://www.us-cert.gov
                                                                                         E.2.
   E.2. Incident Detection Capabilities.
                                                                                                                                          Number of         Percentage of
                                                                                                                                           Systems          Total Systems
                         a. How many systems underwent vulnerability scans and penetration tests in FY04?                                              95         55%
                         b. Specifically, what tools, techniques, technologies, etc., does the agency use to mitigate IT security risk?
                                  Answer:
                                     The OIG and Agency use Symantec NetRecon, NESSUS, and Internet Security Systems to conduct technical vulnerability assessments. The Agency Tools
                                     also include NMap, TNT, EtherPeek, and PatchLink. Technical controls are firewalls, IDSs, perimeter controls, configuration management, and CSIRC and
                                     vulnerability management solutions.

Comments:
E.1. - The OIG used a sample to evaluate the Agency's compliance with defined policies and procedures for reporting incidents internally and externally to
      law enforcement authorities and to US-CERT.
E.2.a. - This number reflects scans performed by the OIG as well as the Agency. The OIG performed a variety of scans on 13 systems.
Section F: Incident Reporting and Analysis
NOTE: ALL of Section F should be completed by BOTH the Agency CIO and the OIG.

   F.1. For each category of incident listed: identify the total number of successful incidents in FY04, the number of incidents reported to US-CERT, and the
   number reported to law enforcement. If your agency considers another category of incident type to be high priority, include this information in category VII,
   "Other". If appropriate or necessary, include comments in the Comment area provided below
   F.2. Identify the number of systems affected by each category of incident in FY04. If appropriate or necessary, include comments in the Comment area
   provided below.
                                                                          F.1., F.2. & F.3.
                                                                                   F.1.                                                  F.2.
                                                                     Number of Incidents, by category:                Number of systems affected, by category, on:



                                                                    F.1.a               F.1.b.         F.1.c.         F.2.a.          F.2.b.            F.2.c.
                                                                 Reported           Reported to US- Reported to  Systems with Systems without        How many
                                                                 internally             CERT            law     complete and up- complete and up-    successful
                                                                                                    enforcement   to-date C&A      to-date C&A incidents occurred
                                                                                                                                                      for known
                                                                                                                                                  vulnerabilities for
                                                                                                                                                  which a patch was
                                                                                                                                                      available?



                                                                                                                    Number of        Number of         Number of
                                                                Number of            Number of      Number of        Systems          Systems           Systems
                                                                Incidents            Incidents      Incidents        Affected         Affected          Affected
     I. Root Compromise                                                         0               0               0                0               0                    0
     II. User Compromise                                                        0               0               0                0               0                    0
     III. Denial of Service Attack                                              1               1               0                1               0                    0
     IV. Website Defacement                                                     0               0               0                0               0                    0
     V. Detection of Malicious Logic                                            1               1               0                1               0                    0
     VI. Successful Virus/worm Introduction                                   224             224               1               63               2                   12
     VII. Other                                                                29              29               3                3               0                    0
                                                     Totals:                  255             255               4               68               2                   12

Comments:
Agency officials compiled this data in late September 2004, and therefore, the OIG did not independently verify the data. However,
during the OIG review of the Agency's incident handling process, we did not find evidence contradicting the Agency response.
Section G: Training
NOTE: ALL of Section G should be completed by BOTH the Agency CIO and the OIG.


   G.1. Has the agency CIO ensured security training and awareness of all employees, including contractors and those employees with significant IT security
   responsibilities? If appropriate or necessary, include comments in the Comment area provided below.
                                                                                G.1.
     G.1.a.                  G.1.b.                    G.1.c.                  G.1.d.                            G.1.e.                             G.1.f.

Total number of Employees that received IT Total number of Employees with significant               Briefly describe training provided          Total costs for
 employees in security awareness training employees with security responsibilities that                                                          providing IT
     FY04        in FY04, as described in   significant IT received specialized training,                                                     security training in
                 NIST Special Publication      security     as described in NIST Special                                                             FY04
                         800-50            responsibilities Publications 800-50 and 800-                                                           (in $'s)
                                                                         16




                    Number        Percentage                          Number       Percentage


                                                                                                     GoLearn and Other Training
         23,404         21,024        90%               821            406              49%                                                       $476,802
                                                                                                 (See Comments for brief description)

                                                                                G.2.
                                                                             Yes or No
   a. Does the agency explain policies regarding peer-to-peer
   file sharing in IT security awareness training, ethics training,             No
   or any other agency wide training?
                                                                 Yes           No
Comments:
Agency officials compiled this data in late September 2004, and therefore, the OIG did not independently verify the data. However, during
the OIG review of the Agency's training process, we did not find evidence contradicting the Agency response.

G.1.e. - Government Online Learning Center's (GoLearn) IT Security Training Library, composed of more than 75 IT security-related
courses in Data Security, Network Security, Security Planning and Security Policy/Guidelines; National Defense University provides training
in Information Resource Management; and the EPA's 2004 IT Security and Operations Conference in Research Triangle Park, included (but
not all inclusive) training modules in Anytime Anyplace Access, Risk Assessments, Security Plans, Certification and Accreditation, Wireless
LAN, Patch Management, Contingency Planning, Incident Response, and Bindview.
